            Office of Inspector General




May 24, 2005

LEE R. HEATH
CHIEF POSTAL INSPECTOR

SUBJECT: Audit Report – Postal Inspection Service Law Enforcement Vehicles
         (Report Number SA-AR-05-002)

This report presents the results of our self–initiated audit of the Postal Inspection
Service Law Enforcement Vehicles (Project Number 03BN010SA000). Our overall
objective was to determine whether the Postal Inspection Service was managing its
vehicles in an efficient manner. Specifically, we determined whether policies and
procedures for vehicle disposal were appropriate for optimal vehicle usage.

Postal Inspection Service officials followed its disposal criteria regarding vehicle age
and/or mileage. However, opportunities exist to optimize vehicle usage and improve the
overall management of Postal Inspection Service vehicles. Specifically, the Postal
Inspection Service could modify policies and procedures to extend the service life of its
vehicles. Also, preparing and maintaining vehicle analysis sheets, as required, could
assist officials at division headquarters with making decisions on whether vehicles are
suitable and serviceable to remain in the vehicle fleet. In addition, division personnel
could improve procedures for monitoring and tracking vehicles Postal Inspection
Service officials authorized to be reassigned to the Postal Service to decide whether to
defer and/or avoid costs for new vehicles.

We recommended the Chief Postal Inspector implement procedures to extend the
service life for Postal Inspection Service vehicles to seven years and/or 94,500 miles for
an annual cost-avoidance of approximately $746,000, or $1.5 million over the additional
two years. We also recommended the Chief Postal Inspector establish procedures to
assure managers review policies and procedures regarding vehicle disposal periodically
to achieve optimal vehicle usage, and assure the Inspection Service Manual is updated
as appropriate. Extending the service life of Postal Inspection Service vehicles provides
an opportunity for $1.5 million of funds put to better use. Finally, we recommended the
Chief Postal Inspector assure that personnel at division headquarters prepare and
maintain vehicle analysis sheets, and monitor and track vehicles approved for
reassignment to the Postal Service.




   1735 N Lynn St
   Arlington, VA 22209-2020
   (703) 248-2100
    Fax: (703) 248-2256
Management agreed with recommendations 2 through 4 requiring managers to follow
policies and procedures regarding vehicle disposal, implement procedures to assure the
Inspection Service Manual is updated regarding vehicle disposal to achieve optimal
vehicle usage, and implement procedures to assure officials at division headquarters
prepare and maintain vehicle analysis sheets for each vehicle. Management’s
corrective actions taken or planned satisfy the intent of our recommendations.
However, management disagreed with recommendation 1 requiring officials to
implement procedures to extend the service life of its vehicles and the cost avoidance
and recommendation 5 requiring officials at division headquarters to monitor and track
vehicles approved by Postal Inspection Service officials for reassignment to the Postal
Service. We do not plan to pursue recommendations 1 and 5 through the formal audit
resolution process. Management’s comments and our evaluation of these comments
are included in the report.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Sandra Bruce,
Director, Oversight of Investigative Activities, or me at (703) 248-2300.

/s/ Mary W. Demory

Mary W. Demory
Deputy Assistant Inspector General
 for Core Operations

Attachments

cc: Mary Anne Gibbons
    James J. Rowan, Jr.
    Steven R. Phelps
Postal Inspection Service                                          SA-AR-05-002
 Law Enforcement Vehicles


                             TABLE OF CONTENTS

 Executive Summary                                                     i

 Part I

 Introduction                                                          1

    Background                                                         1
    Objective, Scope, and Methodology                                  2
    Prior Audit Coverage                                               3

 Part II

 Audit Results                                                         5

    Improved Vehicle Management Could Optimize Vehicle Usage           5

           Vehicle Disposal                                            5
           Recommendations                                             9
           Management’s Comments                                       9
           Evaluation of Management’s Comments                         9

           Vehicle Analysis Sheets                                    12
           Recommendation                                             13
           Management’s Comments                                      13
           Evaluation of Management’s Comments                        13

           Reassigned Vehicles Could Not Be Validated                 14
           Recommendation                                             15
           Management’s Comments                                      15
           Evaluation of Management’s Comments                        15

 Appendix A. Comparative Cost Analysis Methodology                    17

 Appendix B. Statistical Sampling and Projections for Review of       21
             Complaints with Potential Age-related Safety Issues

 Appendix C. Management’s Comments                                    24
Postal Inspection Service                                                                              SA-AR-05-002
 Law Enforcement Vehicles


                                       EXECUTIVE SUMMARY
    Introduction                   This report represents the results of our self-initiated audit of
                                   Postal Inspection Service Law Enforcement Vehicles. Our
                                   overall objective was to determine whether the Postal
                                   Inspection Service was managing its vehicles in an efficient
                                   manner. Specifically, we determined whether policies and
                                   procedures for vehicle disposal were appropriate for optimal
                                   vehicle usage.

    Results in Brief               Postal Inspection Service officials followed its disposal
                                   criteria regarding vehicle age and/or mileage. However,
                                   opportunities exist to optimize vehicle usage and improve
                                   the overall management of the Postal Inspection Service
                                   vehicle program. Specifically, the Postal Inspection Service
                                   could modify its policies and procedures to extend the
                                   service life of its vehicles. Further, preparing and
                                   maintaining vehicle analysis sheets, as required, could
                                   assist division headquarters’ officials with determining which
                                   vehicles are suitable and serviceable to remain in the
                                   vehicle fleet. Vehicle analysis sheets document vehicle
                                   mileage, average miles per gallon, vehicle repair cost, and
                                   other pertinent information. Postal Inspection Service
                                   officials replaced vehicles that had not reached optimal
                                   usage and could have been suitable and serviceable to
                                   remain in the vehicle fleet. Further, officials could realize a
                                   cost-avoidance of approximately $746,0001 annually, or
                                   $1.5 million over the additional two years, by extending the
                                   service life of its vehicles, resulting in funds put to better
                                   use.

                                   To illustrate, the majority of Postal Inspection Service
                                   vehicles disposed in fiscal years (FYs) 2003 and 2004 met
                                   the age criteria of five years; however, 70 percent of the
                                   vehicles had less than 75,000 miles. The average mileage
                                   for vehicles disposed in FYs 2003 and 2004 was 61,371
                                   and 58,649, respectively.

                                   Postal Inspection Service officials stated that they
                                   reassigned a significant number of vehicles to the Postal
                                   Service. However, we could not validate the number of
                                   vehicles reassigned because the officials did not effectively
1
 The annual cost avoidance is based on extending the life of 1,512 of the 2,220 vehicles for the Postal Inspection
Service.




                                                          i
Postal Inspection Service                                                                   SA-AR-05-002
 Law Enforcement Vehicles


                                monitor and track those vehicles. Effective monitoring and
                                tracking of vehicles transferred to the Postal Service assists
                                with determining: (1) the overall effectiveness and
                                efficiency of the Postal Inspection Service vehicle program,
                                and (2) the benefits to the Postal Service when deferring
                                and/or avoiding costs for acquiring new vehicles.

                                Additionally, Postal Inspection Service officials stated and
                                we recognized that the Postal Inspection Service’s
                                replacement policies were consistent with agencies
                                benchmarked. However, these agencies often continued to
                                operate their vehicles beyond the established criteria due to
                                financial constraints. Further, an informal survey conducted
                                by the Michigan State Police showed that most police
                                agencies replaced their vehicles with mileage between
                                60,000 and 100,000 miles and other police agencies
                                replace their vehicles with mileage up to 150,000 miles.2

    Summary of                  We recommended the Chief Postal Inspector implement
    Recommendations             procedures to extend the service life for Postal Inspection
                                Service vehicles to seven years and/or 94,500 miles for an
                                annual cost avoidance of approximately $746,000, or
                                $1.5 million over the additional two years. In addition, we
                                recommended the Chief Postal Inspector implement
                                procedures to assure managers review vehicle disposal
                                policies and procedures periodically to achieve optimal
                                vehicle usage, and establish procedures to assure the
                                Inspection Service Manual is updated appropriately.

                                Further, we recommended the Chief Postal Inspector
                                implement procedures to assure officials at division
                                headquarters prepare and maintain vehicle analysis sheets
                                and assess the results before vehicle disposal and
                                acquisition. Finally, we recommended the Chief Postal
                                Inspector develop procedures to assure personnel at
                                division headquarters monitor and track vehicles approved
                                by Postal Inspection Service officials for reassignment to the
                                Postal Service.




2
 In response to management’s comments, OIG reviewed a 2003 Drug Enforcement Agency Study to determine
additional agencies’ vehicle disposal criteria.



                                                    ii
Postal Inspection Service                                                      SA-AR-05-002
 Law Enforcement Vehicles




 Summary of                 Management disagreed with our recommendation to
 Management’s               implement procedures to extend the service life of Postal
 Comments                   Inspection Service vehicles, including the cost-avoidance of
                            approximately $746,000, or $1.5 million over the additional
                            two years. Specifically management stated that extending
                            the service life of its vehicles would put the safety of
                            employees and anyone transported at risk. Management
                            further stated the cost-avoidance did not reflect the number
                            of vehicles transferred to the Postal Service. Additionally,
                            management stated their replacement policies were
                            consistent with the Postal Service and other agencies
                            benchmarked.

                            Management agreed with our recommendations to require
                            managers to periodically review vehicle disposal policies
                            and procedures, assure the Inspection Service Manual is
                            updated, and assure officials at division headquarters
                            prepare and maintain vehicle analysis sheets and assess
                            the results before vehicle disposal and acquisition.
                            However, management offered usage of Postal Service
                            (PS) Form 4587, Request to Repair, Replace, or Dispose of
                            Postal Owned Vehicle, in conjunction with the repair limits in
                            Handbook PO 701, Fleet Management, as an alternate
                            solution to the vehicle analysis sheets.

                            Management disagreed with our recommendation to
                            develop procedures to assure personnel at division
                            headquarters monitor and track vehicles approved by Postal
                            Inspection Service officials for reassignment to the Postal
                            Service, stating usage of PS Form 4587 would provide the
                            necessary documentation to track vehicles transferred to
                            the Postal Service. Management’s comments, in their
                            entirety, are included in Appendix C of this report.

 Overall Evaluation of      Management did not provide sufficient evidence to
 Management’s               substantiate issues with safety. However, our analysis of
 Comments                   over 2,000 nationwide vehicle complaints from the National
                            Highway Traffic Safety Administration showed that less than
                            five percent of the complaints were age related safety
                            issues that would not be prevented by maintenance. Also,
                            the General Motors manager, Safety Affairs and
                            Regulations stated that vehicle age would not significantly
                            impact vehicle safety and performance in vehicles that
                            receive preventive and unscheduled maintenance.


                                             iii
Postal Inspection Service                                                       SA-AR-05-002
 Law Enforcement Vehicles



                            Further, the Federal Bureau of Investigation (FBI) reported
                            in its FBI Bulletin, dated August 2002, that there was no
                            conclusive evidence regarding how long a vehicle will last or
                            when safety related parts become dangerous. The bulletin
                            further reported that maintenance and environment are two
                            factors that determine the life expectancy of a vehicle.

                            Postal Service policy stipulates that administrative vehicles,
                            including law enforcement vehicles, should receive
                            preventive maintenance inspections every 26 weeks and
                            more frequently for higher mileage vehicles such as law
                            enforcement vehicles. Preventive maintenance inspections
                            should provide reasonable assurance that safety related
                            parts could be replaced prior to excessive wear and that
                            potential safety issues could be identified prior to any
                            failures.

                            Additionally, our analyses showed that the majority of Postal
                            Inspection Service vehicles disposed of in FYs 2003 and
                            2004 met the age criteria of five years, however, 70 percent
                            of the vehicles had less than 75,000 miles. The average
                            mileage for vehicles disposed of in FYs 2003 and 2004 was
                            61,371 and 58,649, respectively.

                            We recognized in this report that the Postal Inspection
                            Service’s replacement policies were consistent with
                            agencies benchmarked. However, these agencies often
                            continued to operate their vehicles beyond their established
                            criteria due to financial constraints. Further, an informal
                            survey conducted by the Michigan State Police showed that
                            most police agencies replaced their vehicles with mileage
                            between 60,000 and 100,000 miles and other police
                            agencies replace their vehicles with mileage up to
                            150,000 miles.

                            Moreover, Inspection Service officials stated they
                            reassigned a significant number of vehicles to the Postal
                            Service. However, they did not provide any evidence to
                            support the reassignments, nor could we obtain this
                            information from Postal Service officials or the Vehicle
                            Management Accounting System (VMAS). We do not plan
                            to pursue this recommendation through the formal audit
                            resolution process.




                                             iv
Postal Inspection Service                                                       SA-AR-05-002
 Law Enforcement Vehicles



                            Management comments and planned corrective actions
                            regarding recommendations 2 and 3 are responsive and
                            satisfy the intent of our recommendations to require
                            managers to periodically review vehicle disposal policies
                            and procedures and update the Inspection Service Manual,
                            as appropriate. Management comments regarding
                            recommendation 4 are partly responsive. We agree
                            effective use of PS Form 4587 will satisfy the intent of our
                            recommendation to assure personnel prepare, maintain,
                            and assess the results of vehicle analysis sheets prior to
                            vehicle acquisition and disposal. However, the current
                            maintenance reinvestment guidelines in Handbook PO 701
                            would not fully address the need to further optimize vehicle
                            usage.

                            Specifically, the maintenance reinvestment guidelines in
                            Handbook PO 701 stipulate that no costs be expended on
                            maintenance for administrative vehicles with an age greater
                            than five years. Postal Service officials recognized the need
                            for a revision and are conducting analyses to extend the
                            service life of administrative vehicles to ten years and/or
                            100,000 miles and increase the maintenance reinvestment
                            guidelines. This revision would allow for suitable and
                            serviceable vehicles to remain in the vehicle fleet longer and
                            defer the acquisition of new vehicles. Therefore, the Postal
                            Inspection Service should conduct analyses similar to the
                            Postal Service to further optimize its vehicle management
                            program. We do not plan to pursue this recommendation
                            through the formal audit resolution process.

                            Management disagreed with recommendation 5. However,
                            their proposed corrective action will satisfy the intent of our
                            recommendation to assure personnel at division
                            headquarters monitor and track vehicles approved by Postal
                            Inspection Service officials for reassignment to the Postal
                            Service. We do not plan to pursue this recommendation
                            through the formal audit resolution process.




                                             v
Postal Inspection Service                                                                           SA-AR-05-002
 Law Enforcement Vehicles


                                            INTRODUCTION
    Background                    As a law enforcement and security arm of the United States
                                  Postal Service, the Postal Inspection Service is responsible
                                  for ensuring the integrity of the mail and the Postal Service
                                  by performing investigative, security and preventive
                                  services, and by enforcing approximately 200 federal laws
                                  that protect the mail, Postal Service employees, customers,
                                  and assets.

                                  To help meet its wide-ranging responsibilities, the Postal
                                  Inspection Service maintains a fleet of approximately
                                  2,220 vehicles with an asset value of approximately
                                  $42 million.1 These vehicles are primarily used by
                                  Inspectors and Postal Police Officers for official business
                                  only and are considered for replacement at five years and/or
                                  75,000 miles. The primary method of excessing vehicles is
                                  by auction. The Postal Inspection Service participates in
                                  two auction processes, one with the Vehicle Maintenance
                                  Facilities (VMF) and the other with the General Services
                                  Administration. The Postal Inspection Service purchased
                                  467 vehicles for approximately $8.6 million in FY 2003, and
                                  473 vehicles for approximately $9 million in FY 2004.

                                  Vehicle information is maintained in three separate
                                  database systems: Vehicle Management Accounting
                                  System4 (VMAS), Inspection Service Database Information
                                  System5 (ISDBIS), and local databases6 at each division.
                                  Additionally, these systems are managed by different
                                  functional groups within the Postal Inspection Service and
                                  the Postal Service. Vehicle maintenance clerks and general
                                  clerks at the Postal Service VMF manage VMAS, while
                                  Administrative Specialists and/or Vehicle Coordinators at
                                  the Postal Inspection Service divisions manage vehicle
                                  information within ISDBIS and the local databases.




1
  Figures reflect the number of vehicles and asset value as of October 2003.
4
  VMAS is the Postal Service system used to manage its fleet of vehicles. The system is intended to track
maintenance cost of vehicles and document maintenance workload. It contains parts, vehicle, and fuel inventories.
5
  ISDBIS was the Postal Inspection Service’s vehicle tracking system. Effective July 2004, ISDBIS was replaced by
the Inspection Service Integrated Information System (ISIIS).
6
  Excel and/or Access software spreadsheets, which include vehicle information managed at each division by
Administrative Specialists and/or Vehicle Coordinators.



                                                        1
Postal Inspection Service                                                                           SA-AR-05-002
 Law Enforcement Vehicles




    Objective, Scope, and          Our objective was to determine whether the Postal
    Methodology                    Inspection Service was managing its vehicles in an efficient
                                   manner with specific emphasis on determining whether
                                   policies and procedures for vehicle disposal were
                                   appropriate for optimal vehicle usage.

                                   To accomplish our objective, we interviewed Postal
                                   Inspection Service and Postal Service officials, including
                                   inspectors in charge, the Finance and Administrative
                                   Service Center manager, Vehicle Administrators, and
                                   managers at the vehicle maintenance facilities. We also
                                   interviewed officials from the National Highway Traffic
                                   Safety Administration7 (NHTSA) and General Motors
                                   Corporation regarding whether vehicle age significantly
                                   impacts safety and performance. Additionally, we reviewed
                                   policies and procedures for official vehicles including Postal
                                   Service guidance, Inspection Service Manual, Postal
                                   Service Fleet Management Handbook PO-701, and
                                   applicable federal regulations.

                                   We also reviewed and analyzed vehicle information
                                   contained in VMAS and ISDBIS. We reviewed information
                                   on disposed and new vehicles for FYs 2003 and 2004.
                                   Specifically, we analyzed the age and mileage for Postal
                                   Inspection Service vehicles as of October 2003 and vehicles
                                   disposed of in FYs 2003 and 2004. Further, we reviewed
                                   vehicle reassignment requests for FYs 2003 and 2004 to
                                   determine the total number of vehicles authorized by Postal
                                   Inspection Service officials for reassignment to the Postal
                                   Service.

                                   Additionally, we reviewed and analyzed the Postal Service
                                   Make/Model and Component Cost report for fourth quarter,8
                                   FYs 1999-2003, to determine vehicle maintenance costs.
                                   We also reviewed the Kelley Blue Book to identify trade-in
                                   values for different types of Postal Inspection Service
                                   vehicles. Further, we prepared a life-cycle cash flow
                                   analysis of Postal Inspection Service vehicles purchased in


7
  National Highway Traffic Safety Administration is a government agency within the United States Department of
Transportation. It has a legislative mandate under Title 49 of the United States Code, Chapter 301, Motor Vehicle
Safety, to issue Federal Motor Vehicle Safety Standards and Regulations to which manufacturers of motor vehicles
and equipment items must conform and certify compliance.
8
  Fourth quarter report is cumulative for the fiscal year.



                                                         2
Postal Inspection Service                                                                               SA-AR-05-002
 Law Enforcement Vehicles


                                    2003 and for vehicles that were less than or equal to
                                    four years old. 9

                                    We also statistically sampled NHTSA vehicle complaints to
                                    assess the effects of retaining vehicles beyond the current
                                    five-year retention period. Specifically, we examined
                                    complaints for vehicles age six to nine years old that were
                                    typically driven by the Postal Inspection Service to
                                    determine whether the complaints identified age related
                                    safety issues that would not likely be prevented by
                                    maintenance actions. We also analyzed complaints for the
                                    same type of vehicles that were less than five years old to
                                    determine whether consumers’ reported safety related
                                    issues similar to those reported in the older vehicles.

                                    This sample included five of the Postal Inspection Service’s
                                    seven most prevalent10 vehicles that were age four years
                                    old or less as of October 2003 and new vehicles purchased
                                    in FY 2003, to determine whether vehicle age significantly
                                    impacts vehicle safety and performance. We did not assess
                                    the reliability of the computer-generated data from VMAS
                                    and ISDBIS, or the data from the NHTSA. However, the
                                    data was sufficiently reliable to support the opinions and
                                    conclusions in this report. Appendix B provides a detail
                                    summary of our analysis.

                                    We benchmarked with the Air Force Office of Special
                                    Investigations, Drug Enforcement Administration, Federal
                                    Bureau of Investigation (FBI), and United States Secret
                                    Service to assess their criteria for vehicle disposal. We did
                                    not independently verify information received from these
                                    agencies and only used the information to show agency
                                    comparisons. We also reviewed the Postal Service and
                                    Postal Service Office of Inspector General’s (OIG) vehicle
                                    disposal criteria.

                                    This audit was conducted from November 2003 through
                                    May 2005 in accordance with generally accepted
                                    government auditing standards and included such tests of
                                    internal controls as were considered necessary under the



9
   Vehicles included in the universe of vehicles less than or equal to four years old were recorded in VMAS as of
October 2003.
10
   Prevalent vehicle makes and models represented 57 percent of Postal Inspection Service vehicles.



                                                           3
Postal Inspection Service                                                    SA-AR-05-002
 Law Enforcement Vehicles



                            circumstances. We discussed our observations and
                            conclusions with management officials and included their
                            comments, where appropriate.

 Prior Audit Coverage       XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
                            XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
                            XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX

                            XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
                            XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
                            XXXXXXXXXXXX

                            XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
                            XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
                            XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
                            XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
                            XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
                            XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
                            XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
                            XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
                            XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
                            XXXXXXXXXXXXXXXXXXXXXXXXXX

                            XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
                            XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
                            XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
                            XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
                            XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
                            XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
                            XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
                            XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
                            XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
                            XXXXXXXXXXXXXXXXXXXXXXXXXXXXXX




                                            4
Postal Inspection Service                                                                             SA-AR-05-002
 Law Enforcement Vehicles


                                            AUDIT RESULTS
 Improved Vehicle                  Postal Inspection Service officials followed their disposal
 Management Could                  criteria regarding vehicle age and/or mileage. However,
 Optimize Vehicle                  opportunities exist to optimize vehicle usage and improve
 Usage                             the overall management of Postal Inspection Service
                                   vehicles. Specifically, the Postal Inspection Service could
                                   modify policies and procedures to extend the service life of
                                   its vehicles. Also, officials at division headquarters could
                                   prepare and maintain vehicle analysis sheets, as required,
                                   to assist with making decisions to dispose of vehicles. In
                                   addition, division personnel could improve procedures for
                                   monitoring and tracking vehicles Postal Inspection Service
                                   officials authorized to be reassigned to the Postal Service.

                                   As a result, Postal Inspection Service officials replaced
                                   vehicles that had not reached their optimal use and would
                                   have been suitable and serviceable to remain in the vehicle
                                   fleet. In addition, officials could realize a cost-avoidance of
                                   approximately $746,00011 annually, or $1.5 million over the
                                   additional two years, by extending the service life of its
                                   vehicles to seven years and/or 94,500 miles. Appendix A
                                   provides a summary of assumptions, methodology, and
                                   calculations for the annual cost-avoidance.

 Vehicle Disposal                  Policies and procedures for vehicle disposal could be
                                   modified to further optimize vehicle usage. Specifically,
                                   Postal Inspection Service officials did not periodically assess
                                   its policies and procedures regarding vehicle disposal. For
                                   example, the majority of vehicles disposed of in FYs 2003
                                   and 2004 met the age criteria of five years. However, about
                                   70 percent of these vehicles had less than 75,000 miles.
                                   The chart on the next page depicts the number, percentage,
                                   and age of vehicles disposed of in FYs 2003 and 2004 with
                                   less than 75,000 miles.




11
  The annual cost avoidance is based on extending the life of 1,512 of the Postal Inspection Service’s 2,220
vehicles.




                                                          5
Postal Inspection Service                                                                            SA-AR-05-002
 Law Enforcement Vehicles




                                          Disposed Vehicles With Mileage Less Than 75,000

                                                 Description                           FY 2003        FY 2004
                                    Disposed Vehicles                                    46312          38813
                                    Vehicles With Mileage Less Than                      333            283
                                    75,000
                                    Percentage of Vehicles With Mileage                   7214              7415
                                    Less Than 75,000
                                    Average Age (Years)                                    5                 5

                                  Our analysis of the 463 and 388 vehicles disposed of in
                                  FYs 2003 and 2004, respectively, established an average of
                                  232 miles per week per vehicle. The chart below depicts the
                                  overall average mileage and age for vehicles disposed in
                                  FYs 2003 and 2004.

                                         Analysis of Age and Mileage for Disposed Vehicles

                                          Description                      FY 2003               FY 2004
                                    Average Current Mileage                 61,371                58,649
                                    Average Yearly Mileage                  12,025                12,132
                                    Average Weekly Mileage                   231                   233

                                  Based on Inspection Service Manual, Section 156.721,
                                  dated July 1, 2003, Postal Inspection Service vehicles will
                                  be considered for disposal on an individual basis when a
                                  vehicle has been in use for five years and/or driven
                                  70,000 miles. In December 1996, the Deputy Chief
                                  Inspector, Administration, issued a memorandum to change
                                  the disposal criteria to five years and/or 75,000 miles.

                                  Also, we benchmarked with four federal law enforcement
                                  agencies to assess their criteria for vehicle disposal. The
                                  chart on the next page depicts disposal criteria for the
                                  agencies benchmarked:




12
   Of the 463 vehicles, 3 did not have recorded mileage. Therefore, three vehicles were excluded from our
computation to determine the percentage of vehicles with less than 75,000 miles.
13
   Of the 388 vehicles, 5 did not have recorded mileage. Therefore, five vehicles were excluded from our
computation to determine the percentage of vehicles with less than 75,000 miles.
14
   Computation: 333/460.
15
   Computation: 283/383.



                                                         6
Postal Inspection Service                                                                    SA-AR-05-002
 Law Enforcement Vehicles



                                             Benchmarking Results for Disposal of Vehicles

                                                                                      # of
                                      Federal Law Enforcement Agencies               Years   Mileage
                                     Air Force Office of Special                      NA       NA
                                     Investigations16
                                     Drug Enforcement Administration                   6     75,000
                                     Federal Bureau of Investigations17               NA       NA
                                     Secret Service                                    5     60,000

                                    Although agencies benchmarked had disposal criteria
                                    similar to the Postal Inspection Service, they did not always
                                    dispose of their vehicles in accordance with the established
                                    criteria because of financial constraints. In fact, two of the
                                    agencies stated generally they disposed of their vehicles
                                    with mileage between 80,000 to 90,000 miles.

                                    To identify a more cost effective usage of Postal Inspection
                                    Service vehicles, we further analyzed the mileage for Postal
                                    Inspection Service vehicles disposed of in FY 2003 by
                                    division. Our analyses showed that historically, the Postal
                                    Inspection Services’ maximum annual average mileage per
                                    vehicle was 13,500 miles. Based on our analysis, we
                                    concluded that the Postal Inspection Service could extend
                                    the life of its vehicles to seven years and/or 94,500 miles
                                    (13,500 miles x 7 years), to optimize vehicle usage
                                    and realize a cost-avoidance of approximately
                                    $746,000 annually, or $1.5 million over the additional
                                    two years. In addition, this extension would be consistent
                                    with the Postal Service OIG vehicle disposal policies. See
                                    Appendix A for the methodology we used to determine the
                                    annual cost- avoidance.

                                    We briefed our results to Postal Inspection Service officials
                                    during the audit. Although we demonstrated a financial
                                    advantage to extending the service life of its law
                                    enforcement vehicles, Postal Inspection Service officials
                                    stated that extending the life for its vehicles would
                                    jeopardize its mission. Further, current vehicle disposal
                                    policies were in place for safety reasons.



16
     Vehicles are disposed after predetermined maintenance costs are expended.
17
     Vehicles are disposed based on maintenance cost and request for new vehicles.



                                                          7
Postal Inspection Service                                                                              SA-AR-05-002
 Law Enforcement Vehicles


                                   We interviewed the manager, Safety Affairs and
                                   Regulations, General Motors Corporation,18 to determine
                                   whether vehicle age would significantly impact vehicle safety
                                   and performance in vehicles that were less than or equal to
                                   eight years and/or 108,00019 miles. According to the
                                   manager, vehicle age would not significantly impact safety
                                   and performance if vehicles receive timely preventive and
                                   unscheduled maintenance.

                                   Also, we statistically sampled 2,218 nationwide vehicle
                                   complaints from the NHTSA regarding Chevrolet Blazer,
                                   Chevrolet Impala, Chrysler Jeep Cherokee, Dodge Intrepid,
                                   and Ford Crown Victoria20 with ages ranging from six to
                                   nine years. We analyzed complaints and determined
                                   whether vehicle age contributed to the issues identified in
                                   the complaint. Specifically, we examined complaints
                                   regarding newer model vehicles to determine whether
                                   similar problems occurred. If we found similar problems, we
                                   concluded the failure in the older vehicles was not attributed
                                   to an age related problem. Based on our analysis, we
                                   project no more than 4.75 percent (105 of 2,218) of the
                                   vehicle complaints failed for age related safety issues that
                                   would not be prevented by maintenance. Appendix B
                                   provides a detailed summary of our analysis.

                                   Therefore, based on our interview with a General Motors
                                   official and review of nationwide complaints we concluded
                                   extending the service life of Postal Inspection Service
                                   vehicles to seven years and/or 94,500 miles would not
                                   significantly impact vehicle safety and performance.
                                   Furthermore, we reviewed the Postal Service and Postal
                                   Service OIG disposal criteria. The Postal Service disposed
                                   of its administrative vehicles after eight years and/or
                                   72,000 miles. However, according to the Postal Service,
                                   manager, Delivery and Vehicle Operations, Postal Service
                                   officials are conducting analyses and studies to support
                                   extending the service life for administrative vehicles to
                                   ten years and/or 100,000 miles. The OIG revised its policies
                                   to extend the service life of its vehicles to seven years
                                   regardless of mileage.

18
   In FYs 2003 and 2004, General Motors vehicles represented 62 (290/467) and 58 (272/473) percent of new
vehicles purchased by the Postal Inspection Service.
19
   13,500 miles times eight years.
20
   These vehicles represent five of the Postal Inspection Service’s seven most prevalent vehicles that were four years
old or less as of October 2003 and new vehicles purchased in FY 2003.



                                                          8
Postal Inspection Service                                                               SA-AR-05-002
 Law Enforcement Vehicles



                                    The Postal Inspection Service officials should review vehicle
                                    policies and procedures to assure their vehicles reach
                                    optimal usage prior to disposal. Periodic reviews of policies
                                    and procedures are essential to achieve program efficiency
                                    and would assist the Postal Inspection Service in addressing
                                    the Postal Service’s management challenge of managing
                                    costs.

 Recommendation                     We recommend the Chief Postal Inspector:

                                            1. Implement procedures to extend the service life
                                               for Postal Inspection Service vehicles to
                                               seven years and/or 94,500 miles for an annual
                                               cost-avoidance of approximately $746,000, or
                                               $1.5 million over the additional two years.

 Management’s                       Management disagreed with our recommendation to
 Comments                           implement procedures to extend the service life of its
                                    vehicles and the cost-avoidance, stating extending the
                                    service life of its vehicles would put the safety of employees
                                    and anyone transported at risk. Management further stated
                                    that: (1) the cost-avoidance did not reflect the number of
                                    vehicles transferred to the Postal Service, (2) their
                                    replacement policies were consistent with the Postal Service
                                    and other agencies benchmarked, and (3) the report did not
                                    consider the vehicles’ long idling times, repeated engine
                                    start-ups and shutdowns, and high-speed operations.

                                    Management further stated they contacted the General
                                    Motors official we interviewed and were provided contrasting
                                    information to what the OIG reported regarding vehicle
                                    safety. Additionally, management stated in their comments
                                    in an excerpt from the FBI’s Bulletin, “Even with the best of
                                    care and detailed safety inspections, potential problems can
                                    be unresolved. While many parts failures are irritating at low
                                    speeds, at high speeds, they can be disastrous and even
                                    deadly.”21

 Evaluation of                      We disagree with Postal Inspection Service management’s
 Management’s                       assertion that extending the service life of Inspection Service
 Comments                           vehicles would jeopardize the safety of employees or the
                                    public and affirm our cost-avoidance.
21
     FBI Law Enforcement Bulletin, August 2002.



                                                      9
Postal Inspection Service                                                               SA-AR-05-002
 Law Enforcement Vehicles



                                     Management did not provide sufficient evidence to
                                     substantiate issues with safety. However, our analysis of
                                     over 2,000 nationwide vehicle complaints from the National
                                     Highway Traffic Safety Administration showed less than
                                     5 percent of the complaints were age related safety issues
                                     that would not be prevented by maintenance. Also, our
                                     interview with the General Motors, manager, Safety Affairs
                                     and Regulations, regarding the safety of law enforcement
                                     vehicles revealed that vehicle age would not significantly
                                     impact vehicle safety and performance in vehicles that
                                     receive preventive and unscheduled maintenance in a timely
                                     manner.

                                     Further, the FBI reported in its Bulletin, dated August 2002,
                                     that there was no conclusive evidence regarding how long a
                                     vehicle will last or when safety related parts become
                                     dangerous. The article further stated, “With high-mileage
                                     vehicles, the most common reaction concerns the engine,
                                     transmission, and differential. While those objects represent
                                     the heart of the automobile and the highest cost items, they
                                     are the least likely affected overall by high mileage.”
                                     Further, the article stated that engineers agree that two
                                     factors determine the life expectancy of a vehicle,
                                     environment and maintenance.

                                     Postal Service Vehicle Maintenance Bulletin V-07-98, dated
                                     June 1, 1998, stipulates in part, that at a minimum,
                                     administrative vehicles should receive preventive
                                     maintenance inspections every 26 weeks and more
                                     frequently for higher mileage vehicles. Inspection Service
                                     policy stipulates that vehicle scheduled maintenance should
                                     be maintained in accordance with current maintenance
                                     bulletins and manufacturers’ recommendations.22
                                     Preventive maintenance inspections provide reasonable
                                     assurance that safety related parts are replaced prior to
                                     excessive wear and that potential safety issues are identified
                                     prior to any failures.

                                     Furthermore, our analysis of Inspection Service vehicles
                                     disposed for FYs 2003 and 2004 showed the majority of the
                                     vehicles disposed met the age criteria of five years.
                                     However, about 70 percent of these vehicles had less than

22
     Inspection Service Manual, Section 156.51, April 1, 2004.



                                                           10
Postal Inspection Service                                                      SA-AR-05-002
 Law Enforcement Vehicles


                            75,000 miles. The overall average vehicle mileage for
                            FYs 2003 and 2004 disposed vehicles was 61,371 and
                            58,649, respectively.

                            Also, we agree and recognized in the report that Postal
                            Inspection Service replacement policies were consistent with
                            other law enforcement agencies. However, agency officials
                            stated they did not always dispose of their vehicles as
                            required by established criteria because of financial
                            constraints, and continued to drive the vehicles, resulting in
                            additional miles up to 110,000. Further, we reviewed the
                            Drug Enforcement Administration Motor Vehicle Fleet
                            Maintenance and Replacement Study, dated May 7, 2003.
                            Based on our review, we noted that DEA reported similar
                            results regarding agencies’ benchmarked vehicle disposal
                            criteria and their actual compliance. According to the study,
                            six of the seven agencies benchmarked were not able to
                            meet their replacement standards due to budget constraints.
                            Also, an informal survey conducted by the Michigan State
                            Police showed that most police agencies replaced their
                            vehicles with mileage between 60,000 and 100,000 miles
                            and other police agencies replaced their vehicles with
                            mileage up to 150,000 miles.

                            Although we requested information on the number of
                            vehicles transferred to the Postal Service, Postal Inspection
                            Service officials did not provide the information as
                            requested. In fact, Postal Inspection Service officials stated
                            they had records showing transfers, but their records were
                            not validated and were for internal use only. Additionally, we
                            contacted a Postal Service management official who stated
                            the Postal Service does not have a tracking or reporting
                            system to show the number of Postal Inspection Service
                            vehicles transferred to the Postal Service. We also
                            contacted VMF personnel who indicated they had not
                            entered any information in VMAS regarding Inspection
                            Service vehicles transferred or sold in FY 2004.




                                             11
Postal Inspection Service                                                           SA-AR-05-002
 Law Enforcement Vehicles




 Recommendations            We recommend the Chief Postal Inspector:

                            2.       Require managers to review Postal Inspection Service
                                     policies and procedures periodically regarding vehicle
                                     disposal to assure the policies and procedures are
                                     appropriate for optimal vehicle usage.

                            3.       Implement procedures to assure the Inspection Service
                                     Manual is updated regarding vehicle disposal to
                                     achieve optimal vehicle usage.

 Management’s               Management agreed with recommendations 2 and 3 to
 Comments                   require managers to periodically review vehicle disposal
                            policies and procedures to assure the policies and
                            procedures are appropriate for optimal vehicle usage and
                            implement procedures to assure the Inspection Service
                            Manual is updated appropriately.

 Evaluation of              Management’s comments and planned corrective actions
 Management’s               regarding recommendations 2 and 3 are responsive and
 Comments                   satisfy the intent of our recommendations.

 Vehicle Analysis           Postal Inspection Service officials at division headquarters
 Sheets                     did not prepare and maintain vehicle analysis sheets, as
                            required. Vehicle analysis sheets document vehicle
                            mileage, average miles per gallon, repair cost, and other
                            pertinent vehicle information necessary for effective vehicle
                            management.

                            Based on Inspection Service Manual 156.722, replacement
                            of each vehicle will be determined on an individual basis
                            when Section 156.721 of the Inspection Service Manual has
                            been met. Further, division headquarters must maintain an
                            analysis sheet for each Postal Inspection Service vehicle
                            including:

                                 •     Total mileage through the close of the
                                       fourth accounting period of each fiscal year.
                                 •     Average miles per gallon of gas.
                                 •     Major and repetitive repairs.
                                 •     A statement on the overall condition of the vehicle.




                                                 12
Postal Inspection Service                                                      SA-AR-05-002
 Law Enforcement Vehicles



                            We requested vehicle analysis sheets for all vehicles
                            disposed of in FYs 2003 and 2004. Officials stated they
                            were not aware of the requirement for completing analysis
                            sheets and generally considered vehicle age and mileage to
                            identify vehicles for disposal. Vehicle analysis sheets could
                            have assisted management with: (1) identifying vehicles
                            that were suitable and serviceable to remain in the fleet and
                            (2) deferring and/or avoiding the costs for acquiring new
                            vehicles.

 Recommendation             We recommend the Chief Postal Inspector:

                                  4. Implement procedures to assure officials at
                                     division headquarters prepare and maintain
                                     vehicle analysis sheets for each Postal Inspection
                                     Service vehicle, as required, and assess the
                                     results before vehicle disposal and acquisition.

 Management’s               Management stated they agreed with the intent of the
 Comments                   recommendation, but offered an alternative methodology.
                            Management stated they will use PS Form 4587, Request to
                            Repair, Replace, or Dispose of Postal Owned Vehicle, in
                            conjunction with the repair limits as outlined in Handbook
                            PO 701. Management further stated the use of these tools
                            would take the place of vehicle analysis sheets and would
                            be required for each vehicle before disposal.

 Evaluation of              Management’s comments are partly responsive to our
 Management’s               recommendation. We agree effective use of PS Form 4587
 Comments                   would satisfy the intent of our recommendation to assure
                            personnel prepare and maintain vehicle analysis sheets and
                            assess the results prior to acquisition and disposal.
                            However, PS Form 4587 used in conjunction with the
                            maintenance reinvestment guidelines in Handbook PO 701,
                            would not fully address the need to further optimize vehicle
                            usage.

                            Specifically, the maintenance reinvestment guidelines in
                            Handbook PO 701 stipulate that no cost be expended on
                            maintenance for administrative vehicles with an age greater
                            than five years. Postal Service officials recognized the need
                            for a revision to the handbook and are conducting analyses
                            to extend the service life of administrative vehicles to
                            ten years and/or 100,000 miles and increase the


                                            13
Postal Inspection Service                                                                      SA-AR-05-002
 Law Enforcement Vehicles


                                    maintenance reinvestment guidelines. This revision would
                                    allow for suitable and serviceable vehicles to remain in the
                                    vehicle fleet longer and defer the acquisition of new
                                    vehicles. Therefore, the Postal Inspection Service should
                                    conduct analyses similar to the Postal Service to further
                                    optimize its vehicle management program. We do not plan
                                    to pursue this recommendation through the formal audit
                                    resolution process.

 Reassigned Vehicles                Postal Inspection Service officials stated they reassigned a
 Could Not Be                       significant number of vehicles to the Postal Service.
 Validated                          However, we could not validate the number of vehicles
                                    reassigned to the Postal Service because Postal Inspection
                                    Service officials did not effectively monitor and track vehicles
                                    they authorized for reassignment. Also, according to Postal
                                    Inspection Service officials, all reassignment requests were
                                    not forwarded to the Procurement and Administrative
                                    Service Center, as required.

                                    Inspection Service Manual, Section 156.74, requires Postal
                                    Service managers to direct their requests for Postal
                                    Inspection Service vehicles to the respective inspector in
                                    charge (INC). The INC should then forward the request,
                                    with recommendations, to the Procurement and
                                    Administrative Service Center23 for final approval.

                                    We requested the total number of vehicles disposed of in
                                    FYs 2003 and 2004 that were reassigned to the Postal
                                    Service. Officials at the Procurement and Administrative
                                    Service Center provided a total of 39 email requests, 35 for
                                    FY 2003 and 4 for FY 2004. However, we were informed
                                    the emails provided did not represent the total number of
                                    vehicles reassigned to the Postal Service for FYs 2003 and
                                    2004. Officials also stated that they were not aware of the
                                    total number of vehicles reassigned.

                                    Furthermore, vehicle assignment requests have typically
                                    been approved by personnel at the Procurement and
                                    Administrative Center, Inspectors in Charge, and personnel
                                    at the VMF. However, these personnel did not forward all
                                    requests to the Procurement and Administrative Service
                                    center for final approval, monitoring, or tracking.
                                    Additionally, officials stated that information on the total

23
     Formerly known as the National Headquarters, Finance, and Administrative Service Group.



                                                         14
Postal Inspection Service                                                      SA-AR-05-002
 Law Enforcement Vehicles


                            number of vehicles reassigned for FYs 2003 and 2004 was
                            provided to Postal Inspection Service headquarters’ officials.
                            We requested a copy of the information and were told the
                            information was not validated, incomplete, and for internal
                            use only. Therefore, we did not receive a copy of the
                            information and could not validate the number of vehicles
                            reassigned to the Postal Service.

                            Effective monitoring and tracking of reassigned vehicles is
                            necessary to determine the overall effectiveness and
                            efficiency of the Postal Inspection Service vehicle program
                            and the benefits derived by assisting the Postal Service with
                            deferring and avoiding of the costs for acquiring new
                            vehicles.

 Recommendation             We recommend the Chief Postal Inspector:

                                  5. Develop procedures to require officials at division
                                     headquarters to monitor and track vehicles
                                     approved by Postal Inspection Service officials for
                                     reassignment to Postal Service.

 Management’s               Management disagreed with our recommendation and
 Comments                   stated that the usage of PS Form 4587 would provide the
                            necessary documentation to track vehicles transferred to the
                            Postal Service. Management further stated they would
                            explore the possibility of PS Form 4587 being completed
                            online and a copy sent to the Procurement and
                            Administrative Service Center.

 Evaluation of              Management’s proposed corrective action to use PS
 Management’s               Form 4587 would satisfy the intent of our recommendation
 Comments                   to monitor and track vehicles they approve for reassignment
                            to the Postal Service. However, for effective monitoring and
                            tracking, management should assure the forms are
                            completed online and copies are sent to the Procurement
                            and Administrative Service Center. These procedures will
                            produce the necessary documentation for personnel at the




                                             15
Postal Inspection Service                                                       SA-AR-05-002
 Law Enforcement Vehicles



                            Procurement and Administrative Service Center to
                            effectively monitor and track vehicles approved by
                            Inspection Service officials for reassignment to the Postal
                            Service.




                                             16
Postal Inspection Service                                                     SA-AR-05-002
 Law Enforcement Vehicles



   APPENDIX A. COMPARATIVE COST ANALYSIS METHODOLOGY
Objective
To estimate the amount of potential cost avoidance to the Postal Service if Postal
Inspection Service law enforcement vehicles are used for longer than five years,
specifically for seven and eight years.

Scope
The universe is 1,512 law enforcement vehicles nationwide that are four years old or
younger. The analysis covers up to eight years of life cycle.

The following depicts the universe:

               Model Year         Vehicle Count
                 2000                  443
                 2001                  326
                 2002                  287
                 2003                  456
                       Total          1,512


Methodology
The comparative discounted cash flow analysis based on Postal Service guidelines is
used to estimate the potential cost avoidance.

Option 1 (Baseline): Use for Five years – Five-year cash flow under the existing
situation.

Option 2: Use for Seven years – Seven-year cash flow.

Option 3: Use for Eight years – Eight-year cash flow.

Net Present Value
The Net Present Value (NPV) of cash flow of each scenario is determined by
discounting net cash flows at the prevailing discount rate in 2000 (the year in which the
oldest vehicles were acquired). To have consistency for the four acquisitions
(2000-2003), the known discount rate in 2000 is used for analyzing all three options.

Net Present Value Comparison
When comparing alternatives using NPV, the time horizon for all alternatives must be
the same. Since the time frame of each option is not the same in this case, we applied
the Equivalent Annual Annuity method. This method requires three steps:




                                            17
Postal Inspection Service                                                        SA-AR-05-002
 Law Enforcement Vehicles


     •   Calculate the NPV for each alternative.
     •   Find the annuity for each alternative over its specific time horizon.
     •   Compare the annuity of each.

The following are the factors for eight years.

                        Period (year)       Factor
                             1              0.90909090
                             2              0.82644628
                             3              0.75131480
                             4              0.68301345
                             5              0.62092132
                             6              0.56447393
                             7              0.51315811
                             8              0.46650738


Sum of Present Value Factors
The following are the sum of the above factors for five, seven, and eight years.
   • Five years: 3.790786769
   • Seven years: 4.868418818
   • Eight years: 5.334926198

Annuity Value Calculation
The annuity value of the cash flow is calculated by dividing the net present value of the
cash flow by the sum of the present value interest factors. The annuity values of
Option 2 and Option 3 are compared with that of the baseline (Option 1).

Assumptions
Acquisition program for four years started in 2000.
Salvage value: historical ratio of purchase price and resale value.
Maintenance cost: weighted average actual cost for years one through eight.

Cash Flow Items
The following identifiable cost items are used in the analysis.
   • Purchase price
   • Maintenance cost
   • Residual value (resale price)

Maintenance Costs Analysis
The audit team obtained Postal Inspection Service Division maintenance costs from
Postal Service’s Make, Model and Component Cost Report, Report Number
AEL302P11, for all Postal Inspection Service vehicles in inventory in each maintenance
year examined. For each division and for each of five recent years of data



                                             18
Postal Inspection Service                                                    SA-AR-05-002
 Law Enforcement Vehicles


(maintenance years FYs 1999 through 2003), we had maintenance costs by vehicle
model year. All costs listed were applicable to the cash flow analysis except for the
depreciation term. For each combination of vehicle age and maintenance year, we
summed the maintenance costs across all Postal Inspection Service divisions,
subtracted the depreciation amounts, and calculated the average maintenance cost per
vehicle. We then compared the average costs among the maintenance years for each
age vehicle and found them to be reasonably consistent within each vehicle age group.
There were some fluctuations but there was no particular pattern to them: the average
cost within a vehicle age group was not, for example, steadily increasing or decreasing.
Therefore, we used an average cost across the five maintenance years to represent the
average maintenance cost for all vehicles in an individual vehicle age group. This
produced a curve of increasing maintenance costs as a function of vehicle age, with the
average, per vehicle, maintenance costs shown in Table 1 below. For the cash flow
analysis, we used the “smoothed” values also indicated in the table.

Table 1. Average Vehicle Maintenance Cost as a Function of Vehicle Age

                            Average Maintenance       Smoothed Maintenance
       Vehicle Age, years     Cost, $ per year          Cost, $ per year
               12                  2,296                     2,200
               11                  2,048                     2,175
               10                  2,138                     2,150
               9                   1,947                     2,125
               8                   2,085                     2,100
               7                   2,167                     2,050
               6                   2,061                     2,000
               5                   1,794                     1,920
               4                   1,783                     1,840
               3                   1,760                     1,760
               2                   1,541                     1,540
               1                   1,194                     1,195


Resale Value Analysis
For this analysis, we used the current fleet of Postal Inspection Service vehicles to
determine the primary models of vehicles for which we needed resale values. We used
the 2004 Kelley Blue Book values to determine resale values. First we established,
based on Postal Inspection Service division usage, two average-mileage-per-year
categories to establish mileages for five, seven, and eight-year-old vehicles. For a few
low-mileage districts, we used 9,000 miles per year. For the others we used
13,500 miles per year. We noted that a few individual vehicles were driven much more
than that, but we were interested in typical usage for this analysis. For each mileage
group and vehicle model, we used the current (2004) Kelley Blue Book value for that
model as though it had been purchased five, seven, or eight years ago, with the total
mileage changing accordingly. In total, we determined current resale values for a total


                                           19
Postal Inspection Service                                                   SA-AR-05-002
 Law Enforcement Vehicles


of 194 model, year, and total mileage combinations. We used these in the cash flow
analysis to represent future resale values for the Postal Inspection Service vehicle
inventory mix.

Escalation
Maintenance cost is not escalated.

Discount Rate
Postal Service Discount Rate of 10 percent. (Effective March 25, 2000.)

Data Collection
The audit team collected and provided the data for analysis.




                                           20
Postal Inspection Service                                                        SA-AR-05-002
 Law Enforcement Vehicles


      APPENDIX B. STATISTICAL SAMPLING AND PROJECTIONS
          FOR REVIEW OF COMPLAINTS WITH POTENTIAL
                  AGE-RELATED SAFETY ISSUES

Purpose of the Sampling

One of the objectives of this audit was to assess the effects of retaining vehicles beyond
the current five-year period. In support of this objective, the audit team employed a
stratified random sample of complaints in the NHTSA database to consider the
possibility that longer retention of vehicles would result in an unsafe condition. The
sample design allows statistical projection of the fraction of vehicles experiencing
age-related safety issues that would not likely be prevented by maintenance actions.
We also made separate projections for each of the five vehicle models examined with
this test.

Definition of the Audit Universe

The audit universe included five vehicle models, representing five models that are
prevalent in the Postal Inspection Service fleet. The overall NHTSA complaints
universe as of June 1, 2004, was obtained by United States Postal Service OIG,
Information Technology team. From the overall file for the five models, we created a
calculated column of “date of incident” minus “vehicle model year,” thus establishing an
age-at-incident for use in this analysis. If the incident date field was blank, we excluded
the vehicle from our analysis. For the five models, this process resulted in a total of
2,218 vehicle incidents for which the vehicle involved was six to nine years old at the
time of the incident. Specifically, the audit universe included: 363 Ford Crown Victoria
vehicles, 668 Jeep Cherokee vehicles, 715 Chevrolet Blazer vehicles, 451 Dodge
Intrepid vehicles, and 21 Chevrolet Impala vehicles.

Sample Design and Modifications

The sample size was based on a simple random sample design of complaints
(incidents) within each vehicle model group in case we needed to make separate
projections by model. Because we expected a low occurrence rate of incidents for the
test condition, we calculated the sample size on a one-sided confidence interval, and,
because we wanted a high degree of reliability in our finding, we assumed a desired risk
of over-reliance of only 5 percent (corresponding to the Government Accountability
Office (GAO) recommendation to use a 95 percent “confidence level” for compliance
testing). Using a 5 percent allowable upper error limit (tolerable error) for precision, also
as recommended in the GAO Financial Audit Manual for compliance testing, we
determined a sample size of 59 based on the binomial distribution methodology.
Applying the finite population correction for each model group, we calculated a sample
size of 50 to 55 for each group. Because the Impala group contained only 21 cases, we




                                             21
Postal Inspection Service                                                      SA-AR-05-002
 Law Enforcement Vehicles


included all 21. The overall sample size for the stratified total sample was, therefore,
231 cases.

All selections for inclusion in the sample were made using the “randbetween” function in
Excel to assign random numbers to the items on the universe listing.

Assessment

For the sample of incidents, the team members reviewed and evaluated the incident
description for all of the components involved. Some incidents included multiple
components, some involved only one. The team gave a yes-or-no rating to each
component regarding whether it was a safety-related and age-related failure item that
would not have been avoidable by maintenance action (that is, something that would
not have been detected as wearing or starting to fail, something that would give no
warning). For any “yes” evaluations, the team then examined the data to see whether
newer models also showed similar problems; if there were instances of similar problems
in “younger” cars, the team changed the preliminary assessment of “age-related” to a
“no” evaluation.

We then used the component evaluations from the team to assign an overall vehicle
attribute: if the vehicle had one or more involved components rated as "yes," we rated
the vehicle as a whole as a "yes" occurrence of the test condition.

Statistical Projections of the Sample Data

Methodology
For projection of the number of compliant items, we observed that, as expected, the
sample contained very low occurrence rates of the test condition. Because of the
extremely low occurrence rates, we were not able to use the normal approximation to
the binomial to calculate occurrence limits. Instead, we analyzed the upper occurrence
limits using the cumulative binomial methodology, as used in past GAO Financial Audit
Manual work to generate the table “Statistical Sampling Results Evaluation Table for
Compliance Tests.” As planned, we used a 5 percent risk of over-reliance (beta risk).
The tabulated values for the upper occurrence limits were adjusted by appropriate finite
population correction factors because the universe size was small. We combined the
results from the individual strata by combining the variance terms and calculating an
upper occurrence limit for the combined universe of 2,218 incidents.

Results
Overall (2,218 vehicles in audit universe)
Based on projection of the sample results, we are 95 percent confident that, in the
combined universe of 2,218 vehicles, no more than 105 vehicles (4.75 percent) failed
because of a safety- and age-related item failure that would not have been avoided
through maintenance action. The point estimate is that 33 vehicles (1.54 percent) were
in the stated failure condition.



                                            22
Postal Inspection Service                                                     SA-AR-05-002
 Law Enforcement Vehicles



Dodge Intrepid (451 vehicles in audit universe)
Based on projection of the sample results, we are 95 percent confident that no more
than 39 [calculated 39.2] vehicles (8.7 percent of the 451 vehicles in the review
universe) failed because of a safety- and age-related item failure that would not have
been avoided through maintenance action. The point estimate is that nine vehicles
(2.0 percent) were in the stated failure condition.

Chevrolet Blazer (715 vehicles in audit universe)
Based on projection of the sample results, we are 95 percent confident that no more
than 56 [calculated 57.9] vehicles (8.1 percent of the 715 vehicles in the review
universe) failed because of a safety- and age-related item failure that would not have
been avoided through maintenance action. The point estimate is that 13 [calculated
12.9] vehicles (1.8 percent) were in the stated failure condition.

Jeep Cherokee (668 vehicles in audit universe)
Based on projection of the sample results, we are 95 percent confident that no more
than 54 vehicles (8.1 percent of the 668 vehicles in the review universe) failed because
of a safety- and age-related item failure that would not have been avoided through
maintenance action. The point estimate is that 12 vehicles (1.8 percent) were in the
stated failure condition.

Ford Crown Victoria (363 vehicles in audit universe)
Based on projection of the sample results, we are 95 percent confident that no more
than 20 [calculated 19.6] vehicles (5.4 percent of the 363 vehicles in the review
universe) failed because of a safety- and age-related item failure that would not have
been avoided through maintenance action. The point estimate is that no vehicles
(0.0 percent) were in the stated failure condition.

Chevrolet Impala (21 vehicles in audit universe)
Because all vehicles were reviewed, rather than a sample, no projection is necessary.
The assessment resulted in no vehicles identified as being in the stated failure
condition.




                                           23
Postal Inspection Service                             SA-AR-05-002
 Law Enforcement Vehicles


                  APPENDIX C. MANAGEMENT’S COMMENTS




                                 24
Postal Inspection Service        SA-AR-05-002
 Law Enforcement Vehicles




                            25
Postal Inspection Service        SA-AR-05-002
 Law Enforcement Vehicles




                            26
Postal Inspection Service        SA-AR-05-002
 Law Enforcement Vehicles




                            27
Postal Inspection Service        SA-AR-05-002
 Law Enforcement Vehicles




                            28
Postal Inspection Service        SA-AR-05-002
 Law Enforcement Vehicles




                            29
Postal Inspection Service        SA-AR-05-002
 Law Enforcement Vehicles




                            30
Postal Inspection Service        SA-AR-05-002
 Law Enforcement Vehicles




                            31
Postal Inspection Service        SA-AR-05-002
 Law Enforcement Vehicles




                            32
Postal Inspection Service        SA-AR-05-002
 Law Enforcement Vehicles




                            33
Postal Inspection Service        SA-AR-05-002
 Law Enforcement Vehicles




                            34
Postal Inspection Service        SA-AR-05-002
 Law Enforcement Vehicles




                            35
Postal Inspection Service        SA-AR-05-002
 Law Enforcement Vehicles




                            36
